                                                                                  Issue Date
                                                                                           February 24, 2012
                                                                                  
                                                                                  Audit Report Number
                                                                                           2012-CH-1004




TO:               John Dorgan, Acting Director of Community Planning and Development, 5HD



FROM:             Kelly Anderson, Regional Inspector General for Audit, Region V, 5AGA

SUBJECT: The State of Indiana’s Administrator Lacked Adequate Controls Over the State’s
           HOME Investment Partnerships Program Regarding Community Housing
           Development Organizations’ Activities and Income

                                               HIGHLIGHTS

    What We Audited and Why

                    We audited the State of Indiana’s HOME Investment Partnerships Program. The
                    audit was part of the activities in our fiscal year 2011 annual audit plan. We
                    selected the State based upon our analysis of risk factors relating to Program
                    grantees in Region V’s1 jurisdiction. Our objectives were to determine whether
                    the Indiana Housing and Community Development Authority, the administrator of
                    the State’s Program, complied with the U.S. Department of Housing and Urban
                    Development’s (HUD) requirements in its (1) use of Program funds for a
                    community housing development organization’s rental rehabilitation and new
                    construction project; (2) use of resale or recapture provisions and Program funds
                    for organizations’ home-buyer activities; and (3) use and reporting of the State’s
                    Program income. This is the second of two audit reports on the State’s Program.

    What We Found

                    The Authority did not comply with HUD’s regulations when it did not reimburse
                    the State’s HOME investment trust fund treasury account until March 2011 for

1
    Region V includes the States of Indiana, Illinois, Ohio, Michigan, Minnesota, and Wisconsin.
           $395,000 in Program funds used for an organization’s rental rehabilitation and
           new construction project that was terminated in November 2009. As a result, the
           Authority did not have $395,000 in Program funds available for eligible Program-
           funded activities for more than 15 months.

           The Authority also did not comply with HUD’s requirements in its use of resale or
           recapture provisions and or use of Program funds for organizations’ home-buyer
           new construction projects, home-buyer acquisition-only activities, and home-buyer
           rehabilitation projects. It (1) did not ensure that homes for home-buyer new
           construction projects would remain the principal residence of the home buyers
           throughout the affordability period; (2) provided assistance for ineligible home-
           buyer acquisition-only activities; and (3) lacked sufficient documentation to
           support that home-buyer acquisition-only activities and home-buyer rehabilitation
           projects were eligible. As a result, the Authority (1) used more than $173,000 in
           Program funds for home-buyer new construction projects that did not meet HUD’s
           requirements and (2) was unable to support its use of more than $401,000 in
           Program funds for home-buyer acquisition-only activities and home-buyer
           rehabilitation projects.

           In addition, the Authority did not comply with HUD’s requirements in its use and
           reporting of the State’s Program income. As a result, HUD lost nearly $15,000 in
           interest on the Program funds that the Authority drew down from the State’s
           treasury account when Program income was available.

What We Recommend

           We recommend that the Acting Director of HUD’s Indianapolis Office of
           Community Planning and Development ensure that the State uses the nearly
           $406,000 the Authority reimbursed the State’s treasury account or Program for
           eligible Program costs. We also recommend that the Acting Director require the
           State to (1) provide supporting documentation or reimburse its Program nearly
           $393,000 from non-Federal funds; (2) reimburse HUD nearly $15,000 from non-
           Federal funds, and (3) implement adequate procedures and controls to address the
           findings cited in this audit report.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response

           We provided our discussion draft audit report and supporting schedules to the
           executive director of the Authority and HUD’s staff and our discussion draft audit



                                            2
report to the Authority’s chairman of the board during the audit. We held an exit
conference with the Authority’s executive director on September 13, 2011.
We asked the Authority’s executive director to provide comments on our
discussion draft audit report by September 19, 2011. The executive director
provided written comments, dated September 19, 2011. The executive director
generally disagreed with our findings, but partially agreed with our
recommendations. The complete text of the written comments, except for
documentation contained in 14 attachments that was not necessary for
understanding the executive director’s comments, along with our evaluation of
that response, can be found in appendix B of this report. We provided the Acting
Director of HUD’s Indianapolis Office of Community Planning and Development
with a complete copy of the Authority’s written comments plus the
documentation contained in the 14 attachments.




                                3
                             TABLE OF CONTENTS

Background and Objectives                                                              5

Results of Audit
        Finding 1: The Authority Lacked Adequate Controls Over the Reimbursement
                   of Program Funds Used for an Organization’s Terminated Rental
                   Rehabilitation and New Construction Project                         6

        Finding 2: The Authority Lacked Adequate Controls Over Organizations’
                   Home-Buyer New Construction Projects                                9

        Finding 3: The Authority Lacked Adequate Controls Over Organizations’
                   Home-Buyer Acquisition-Only Activities                              16

        Finding 4: The Authority Lacked Adequate Controls Over Organizations’
                   Home-Buyer Rehabilitation Projects                                  23

        Finding 5: The Authority Lacked Adequate Controls Over Its Administration of
                   Program Income                                                      27

Scope and Methodology                                                                  31

Internal Controls                                                                      34

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                   36
   B. Auditee Comments and OIG’s Evaluation                                            37
   C. HUD’s Requirements and the State’s and the Authority’s Policies                  61
   D. Schedule of Organizations’ Home-Buyer New Construction Projects With
      Inappropriate Recapture Provisions                                               67
   E. Schedule of Organizations’ Home-Buyer Acquisition-Only Activities With
      Insufficient Documentation                                                       69




                                              4
                      BACKGROUND AND OBJECTIVES

The Program. Authorized under Title II of the Cranston-Gonzalez National Affordable Housing
Act, as amended, the HOME Investment Partnerships Program is funded for the purpose of
increasing the supply of affordable standard rental housing; improving substandard housing for
existing homeowners; assisting new home buyers through acquisition, construction, and
rehabilitation of housing; and providing tenant-based rental assistance.

The State. The Indiana Housing and Community Development Authority administers the State
of Indiana’s Program. The Authority was created in 1978 by the Indiana General Assembly and
is a quasi-public financially self-sufficient statewide government agency. It is governed by a
seven-member board of commissioners consisting of the State’s lieutenant governor, the State’s
treasurer, and the Indiana Finance Authority’s public finance director. The board includes four
other members appointed to 4-year terms by the State’s governor. Its mission is for every
resident of the State to have the opportunity to live in safe, affordable, good-quality housing in
economically stable communities. The Authority’s Program records are located at 30 South
Meridian Street, Indianapolis, IN.

The following table shows the amount of Program funds the U.S. Department of Housing and
Urban Development (HUD) awarded the State for program years 2007 through 2011.

                                    Program           Program
                                      year              funds
                                      2007            $15,519,476
                                      2008             15,012,167
                                      2009             16,710,924
                                      2010             16,699,875
                                      2011             14,673,286
                                     Totals           $78,615,728

Our objectives were to determine whether the Authority complied with HUD’s requirements in
its (1) use of Program funds for a community housing development organization’s rental
rehabilitation and new construction project; (2) use of resale or recapture provisions and Program
funds for organizations’ home-buyer new construction projects, home-buyer acquisition-only
activities, and home-buyer rehabilitation projects; and (3) use and reporting of the State’s Program
income.




                                                  5
                                RESULTS OF AUDIT

Finding 1: The Authority Lacked Adequate Controls Over the
     Reimbursement of Program Funds Used for an Organization’s
    Terminated Rental Rehabilitation and New Construction Project
The Authority did not comply with HUD’s regulations when it did not reimburse the State’s
HOME investment trust fund treasury account until March 2011 for $395,000 in Program funds
used for a community housing development organization’s rental rehabilitation and new
construction project that was terminated in November 2009. This weakness occurred because
the Authority lacked adequate procedures and controls to reimburse the State’s treasury account
for Program funds used for a terminated project. As a result, the Authority did not have
$395,000 in Program funds available for eligible Program-funded activities for more than 15
months.



 The Authority Did Not
 Reimburse the State’s Treasury
 Account $395,000 in Program
 Funds Disbursed for a
 Terminated Project

              HUD’s regulations at 24 CFR (Code of Federal Regulations) 92.205(e) state that a
              Program-assisted project that is terminated before completion, either voluntarily
              or otherwise, constitutes an ineligible activity and any Program funds invested in
              the project must be repaid to the participating jurisdiction’s HOME investment
              trust fund in accordance with 24 CFR 92.503(b). HUD’s regulations at 24 CFR
              92.503(b)(2) state that except for repayments of project-specific organization
              loans which are waived in accordance with 24 CFR 92.301(a)(3) and
              92.301(b)(3), any Program funds invested in a project that is terminated before
              completion, either voluntarily or otherwise, must be repaid by the participating
              jurisdiction in accordance with section 92.503(b)(3). Section 92.503(b)(3) states
              that if the Program funds were disbursed from the participating jurisdiction’s
              treasury account, the funds must be repaid to the participating jurisdiction’s
              treasury account.

              The Authority drew down and disbursed $395,000 in Program funds from
              December 2007 through January 2008 to Southern Indiana Homeownership,
              Incorporated, a community housing development organization, for rental
              rehabilitation and new construction project number 22460. The Program funds
              were used for developer fees ($146,722), architectural fees ($138,492), hard costs
              ($57,276), other soft costs ($41,760), and the repayment to the Authority for a
              predevelopment loan ($10,750). The project was to be financed using nearly $4


                                               6
           million in rental housing tax credits. However, the rental housing tax credit
           investor backed out in January 2008. Southern Indiana Homeownership,
           Incorporated, informed the Authority that the investor had backed out and it was
           trying to secure a new investor. In September 2009, the Authority inspected the
           project and determined that the housing rehabilitation and new construction work
           had not progressed since January 2008. Further, Southern Indiana
           Homeownership, Incorporated, had not been able to secure a new investor.

           In November 2009, the Authority terminated the project and determined that it
           would require the repayment of nearly $191,000 in non-predevelopment costs. It
           also inappropriately determined that it would (1) reclassify nearly $194,000 in
           predevelopment costs of the project as a project-specific organization
           predevelopment loan, since the predevelopment cost would have been eligible
           under a loan and then (2) waive the repayment of the loan. It did not consider the
           nearly $11,000 for the repayment of the predevelopment loan. In addition, the
           Authority inappropriately reported in HUD’s Integrated Disbursement and
           Information System that the project was completed in February 2010.

           In January 2011, the Authority entered into a repayment agreement with Southern
           Indiana Homeownership, Incorporated, for more than $83,000. As of February
           2011, the Authority was trying to enter into a repayment agreement with the
           construction company that did work on the project for the remaining nearly
           $108,000. Further, the Authority had not reimbursed the State’s treasury account
           any of the Program funds used for the rental rehabilitation and new construction
           project.

           In March 2011, more than 15 months after rental rehabilitation and new
           construction project number 22460 was terminated and as a result of our audit, the
           Authority reimbursed the State’s treasury account $395,000 from non-Federal
           funds. Further, in April 2011, the Authority decommitted $395,000 in Program
           funds for the project, described the project as a predevelopment loan, and reported
           the project as completed in HUD’s system.

The Authority Lacked
Adequate Procedures and
Controls

           The weakness described above occurred because the Authority lacked adequate
           procedures and controls to reimburse the State’s treasury account for Program
           funds used for an organization’s terminated rental rehabilitation and new
           construction project.

           The Authority’s chief operations officer said that the Authority wanted to limit the
           amount of Program funds that Southern Indiana Homeownership, Incorporated,
           and the construction company would have to repay the Authority since the project



                                            7
             did not move forward. The Authority was not aware that it could not (1)
             reclassify the nearly $194,000 in predevelopment cost of the project as a project-
             specific organization predevelopment loan, since the predevelopment cost would
             have been eligible under a loan and then (2) waive the repayment of the loan. The
             Authority’s deputy counsel stated that the Authority did not initially reimburse the
             State’s treasury account for the nearly $191,000 in nonpredevelopment costs since
             the Authority was focusing its efforts in obtaining repayments from Southern
             Indiana Homeownership, Incorporated, and the construction company.

Conclusion

             The Authority lacked adequate procedures and controls to reimburse its treasury
             account for Program funds used for a terminated rental rehabilitation and new
             construction project. As result, it did not have $395,000 in Program funds
             available for eligible Program-funded activities for more than 15 months.

Recommendations

             We recommend that the Acting Director of HUD’s Indianapolis Office of
             Community Planning and Development

             1A.    Ensure that the State uses the $395,000, which the Authority reimbursed
                    the State’s treasury account for the repaid Program funds associated with
                    rental rehabilitation and new construction project number 22460, only for
                    eligible Program costs.

             We recommend that the Acting Director of HUD’s Indianapolis Office of
             Community Planning and Development require the State to

             1B.    Implement adequate procedures and controls to ensure that the Authority
                    reimburses the State’s treasury account as appropriate for Program funds
                    used for terminated projects.




                                              8
Finding 2: The Authority Lacked Adequate Controls Over
        Organizations’ Home-Buyer New Construction Projects
The Authority did not comply with HUD’s requirements in its use of Program funds for
community housing development organizations’ home-buyer new construction projects. It (1)
did not ensure that resale provisions were implemented until August 2011 for two projects that
received only development subsidies and the closing dates for the two homes occurred in
November 2009, (2) did not implement appropriate recapture provisions for 42 of the remaining
43 projects, (3) did not ensure that homes for 4 of the 42 projects would remain the principal
residences of the home buyers throughout the affordability period, and (4) did not reimburse the
State’s HOME investment trust fund treasury account for more than 17 months for Program
funds that were not used for a project.

These weaknesses occurred because the Authority lacked adequate procedures and controls over
the projects to ensure that it appropriately followed HUD’s requirements. As a result, the
Authority (1) did not ensure that homes would remain the principal residences of the home
buyers throughout the affordability period for four projects totaling more than $173,000 in
Program funds and (2) did not have more than $6,000 in Program funds available for eligible
Program-funded activities for more than 17 months. Further, the Authority is at risk of being
required to reimburse the State’s Program from non-Federal funds if the ownership of homes
acquired through the projects is transferred through foreclosures during the affordability period.



 The Authority Did Not Ensure
 That Resale Provisions Were
 Implemented in a Timely
 Manner for Two Projects

               We reviewed all 45 home-buyer new construction projects that the Authority set
               up and completed in HUD’s Integrated Disbursement and Information System
               from July 1, 2008, through November 30, 2010. The Authority provided nearly
               $1.9 million in Program funds to 10 organizations—Affordable Housing
               Corporation; Family Christian Development Center; Habitat for Humanity of
               Elkhart County; Habitat for Humanity of Monroe County; Habitat for Humanity
               of Morgan County; Habitat for Humanity of Whitley County; Housing
               Opportunities, Inc.; Jeffersonville Housing Services Corporation; La Casa of
               Goshen, Inc.; and Pathfinder Services, Inc.—for the 45 projects.

               HUD’s regulations at 24 CFR 92.254(a)(3) state that housing must be acquired by
               a home buyer whose household qualifies as a low-income household and the
               housing must be the principal residence of the household throughout the period
               described in section 92.254(a)(4). Section 92.254(a)(4) states that Program-
               assisted housing must meet the affordability requirements for not less than the
               applicable period beginning after activity completion. Home ownership activities
               that receive more than $40,000 in Program assistance must remain affordable for


                                                9
            at least 15 years. Section 92.254(a)(5) states that to ensure affordability, the
            participating jurisdiction must impose either resale or recapture requirements that
            comply with the standards of section 92.254(a)(5) and include the provisions in its
            consolidated plan. Section 92.254(a)(5)(ii)(A)(5) states that if Program assistance
            is used only for development subsidies, the Program funds are not subject to
            recapture and the resale option must be used.

            The State’s consolidated plan for 2005 through 2009 and action plan for 2009
            state that when the program design calls for no recapture (for home-buyer
            developments, the home could receive only development subsidies), the
            guidelines for resale will be adopted in lieu of recapture guidelines. Resale
            restrictions will require the seller to sell the property only to a low-income
            household that will use the property as its principal residence. The State’s action
            plan for 2009 also states that the affordability period for all Program-assisted
            housing is determined by the total amount of Program assistance that goes into a
            property. Activities that receive more than $40,000 in Program assistance per unit
            must remain affordable for 15 years.

            The Authority provided only development subsidies for 2 of the 45 home-buyer
            new construction projects reviewed. The Authority provided $104,700 in
            Program funds to Affordable Housing Corporation for project numbers 24860
            ($51,700) and 24862 ($53,000). The closing dates for the two homes occurred in
            November 2009. However, it could not provide documentation to support that
            resale provisions were implemented for the two projects. The Authority also
            could not provide documentation to support that Affordable Housing Corporation
            ensured that the homes for the two projects would remain the principal residences
            of the home buyers throughout the affordability period. Further, unsigned
            declaration of affordability commitments for the two projects included an
            affordability period of 5 years rather than 15 years.

            In August 2011, more than 20 months after the closing dates for the two homes
            and as a result of our audit, Affordable Housing Corporation entered into notice of
            lien and restrictive covenant agreements with the home buyers for the two
            projects. The agreements included resale provisions and that the homes would
            remain the principal residences of the home buyers throughout the affordability
            period of 15 years.

The Authority Did Not
Implement Appropriate
Recapture Provisions for 42 of
the Remaining 43 Projects

            HUD’s regulations at 24 CFR 91.220 state that if a participating jurisdiction
            intends to use Program funds for home buyers, it must state the guidelines for
            resale or recapture, as required in 24 CFR 92.254, in its action plan. HUD’s



                                            10
regulations at 24 CFR 92.254(a)(4) state that Program-assisted housing must meet
HUD’s affordability requirements. Section 92.254(a)(5) states that to ensure
affordability, a participating jurisdiction must impose either resale or recapture
provisions that comply with the standards in section 92.254(a)(5) and include
those provisions in its consolidated plan. Section 92.254(a)(5)(ii)(A) states that in
establishing its recapture provisions, the participating jurisdiction is subject to the
limitation that when the recapture provision is triggered by a voluntary or
involuntary sale of the housing unit and there are no net proceeds or the net
proceeds are insufficient to repay the Program investment due, the participating
jurisdiction may recapture only the net proceeds, if any.

HUD’s HOMEfires, volume 5, number 5, states that a participating jurisdiction
must select either the resale or recapture option for its Program-assisted home-
buyer projects at the time the assistance is provided. The participating
jurisdiction may select one option for all of its Program-assisted home-buyer
projects or choose on a case-by-case basis depending upon market conditions and
or the buyer’s preference. In addition, all options that the participating
jurisdiction will employ must be identified in its consolidated plan and approved
by HUD.

The State’s consolidated plan for 2005 through 2009 and action plan for 2009
state that the amount of Program funds to be recaptured is based on a pro rata
shared net sale proceeds calculation. If there are no proceeds, there is no
recapture. Any net sale proceeds that exist would be shared between the recipient
and the beneficiary based on the number of years of the affordability period that
have been fulfilled, not to exceed the original Program investment.

Contrary to HUD’s requirements and the State’s consolidated plan and action
plan, the Authority did not ensure that it implemented appropriate recapture
provisions for 42 of the remaining 43 home-buyer new construction projects. The
notice of lien and restrictive covenant agreements between the organizations and
home buyers for 23 projects inappropriately gave the home buyers the option of
resale or recapture. The agreements were developed by the Authority. For the
remaining 19 projects, either the Authority or the organizations used various notes
and mortgages that either did not contain recapture provisions or contained a
variety of recapture provisions that were not included in the State’s consolidated
plan for 2005 through 2009 and action plan for Program year 2009.

Promissory notes, which were secured by second mortgages, between the
Authority and the home buyers for 11 projects required the home buyers to repay
the entire amount of home-buyer assistance at or before maturity of the loan. The
promissory notes defined maturity as the sale of the property, the payoff or
refinancing of the first mortgage on the property, or the home buyer’s changing
his or her principal place of residence from the property purchased. The
organizations entered into various notes and mortgages with the home buyers for
the last eight projects that either did not contain recapture provisions or contained



                                  11
           a variety of recapture provisions that were not included in the State’s consolidated
           plan and action plan. None of the notice of lien and restrictive covenant
           agreements, promissory notes, or other various notes and mortgages used for the
           42 projects contained language that limited the amount of Program funds the
           Authority could recapture to the net proceeds from the sale of the property.

           Further, the recapture provisions for 9 of the 42 home-buyer new construction
           projects also included an affordability period longer than required by the State’s
           action plan for Program year 2009, and the amount of the Program assistance that
           was subject to recapture for 7 of the 42 projects was more than the amount of
           assistance that reduced the purchase price from fair market value to an affordable
           price for the home buyers.

           The table in appendix D of this report shows the 42 home-buyer new construction
           projects for which the Authority did not ensure that it implemented appropriate
           recapture provisions and included an affordability period longer than required by
           the State’s action plan for Program year 2009 and or the amount of the Program
           assistance that was subject to recapture was more than the amount of assistance
           that reduced the purchase price from fair market value to an affordable price for
           the home buyers.

           In addition, the Authority did not ensure that the homes for four home-buyer new
           construction projects (numbers 24162, 24530, 24531, and 25529) would remain
           the principal residences of the home buyers throughout the affordability period.
           The promissory notes, which were secured by second mortgages, between
           Housing Opportunities, Inc., and the home buyers did not include language
           requiring the property to remain the principal residence throughout the
           affordability period. The Authority provided $173,455 in Program funds to
           Housing Opportunities, Inc., for these four projects.

The Authority Did Not
Reimburse the State’s Treasury
Account for More Than $6,000
in Program Funds Not Used for
a Project

           HUD’s regulations at 24 CFR 92.502(c)(2) state that Program funds drawn from a
           participating jurisdiction’s treasury account must be expended for eligible costs
           within 15 days. Any Program funds that are drawn down and not expended for
           eligible costs within 15 days of the disbursement must be returned to HUD for
           deposit into the participating jurisdiction’s treasury account.

           As previously stated, the Authority provided Affordable Housing Corporation
           nearly $52,000 in Program funds for home-buyer new construction project
           number 24860. The Authority provided the funds to Affordable Housing



                                            12
           Corporation from May through October 2009 for development subsidy ($45,324)
           and downpayment assistance ($6,376). However, Affordable Housing
           Corporation did not use the more than $6,000 in Program funds for downpayment
           assistance due to the home buyer receiving a U.S. Department of Agriculture loan
           that financed the entire purchase price of the home. Further, the Authority did not
           allow Affordable Housing Corporation to return the more than $6,000 in unused
           Program funds by submitting a revised claim for the project.

           The Authority reported in HUD’s system that the project was completed in March
           2010. In August 2011, more than 17 months after the project was entered as
           completed in HUD’s system and as a result of our audit, the Authority reimbursed
           the State’s treasury account more than $6,000 from non-Federal funds. The
           Authority also reported in HUD’s system that nearly $52,000 in Program funds
           was disbursed for the project. The nearly $52,000 reported in HUD’s system
           included the more than $6,000 that had not been used.

The Authority Lacked
Adequate Procedures and
Controls

           The weaknesses regarding the Authority’s (1) not ensuring that resale provisions
           were implemented for more than 20 months for two projects that received only
           development subsidies, (2) not implementing appropriate recapture provisions for
           42 of the remaining 43 projects, (3) not ensuring that homes for 4 of the 42
           projects would remain the principal residences of the home buyers throughout the
           affordability period, and (4) not reimbursing the State’s treasury account for
           Program funds that were not used for a project occurred because the Authority
           lacked adequate procedures and controls regarding organizations’ projects to
           ensure that it appropriately followed HUD’s requirements.

           The Authority did not require organizations to submit notice of lien and restrictive
           covenant agreements or promissory notes that the organizations entered into with
           home buyers for home-buyer new construction projects. Therefore, the Authority
           did not know whether organizations implemented resale or recapture provisions
           for the projects.

           The Authority’s deputy counsel stated that the Authority’s staff members, who
           drafted the (1) notice of lien and restrictive covenant agreements between the
           organizations and home buyers and (2) promissory notes between the Authority
           and the home buyers, were not aware that recapture provisions in the documents
           needed to conform to the recapture provisions in the consolidated plan and action
           plan. The deputy counsel also stated that the Authority did not know why (1)
           some organizations entered into various notes and mortgages rather than the
           notice of lien and restrictive covenant agreements prepared by the Authority’s
           staff, (2) the recapture provisions for 9 of the 42 home-buyer new construction



                                            13
             projects included an affordability period longer than required by the State’s action
             plan for Program year 2009, and (3) the amount of Program assistance that was
             subject to recapture for 7 of the 42 projects was more than the amount of
             assistance that reduced the purchase price from fair market value to an affordable
             price for the home buyers.

             The deputy counsel said that due to a misunderstanding between the Authority
             and Affordable Housing Corporation, the Authority did not allow Affordable
             Housing Corporation to return the more than $6,000 in unused Program funds for
             project number 24860. However, the Authority did not sufficiently follow up
             with Affordable Housing Corporation to determine what happened with the
             project and ensure that Affordable Housing Corporation repaid the more than
             $6,000 in unused Program funds.

Conclusion

             The Authority lacked adequate procedures and controls regarding the
             organizations’ home-buyer new construction projects to ensure that it
             appropriately followed HUD’s requirements. It (1) did not ensure that resale
             provisions were implemented until August 2011 for two projects that received
             only development subsidies and the closing dates for the two homes occurred in
             November 2009, (2) did not implement appropriate recapture provisions for 42 of
             the remaining 43 projects reviewed, (3) did not ensure that homes would remain
             the principal residences of the home buyers throughout the affordability period for
             four projects totaling more than $173,000 in Program funds, and (4) did not have
             more than $6,000 in Program funds available for eligible Program-funded
             activities for more than 17 months. Further, the Authority is at risk of being
             required to reimburse the State’s Program from non-Federal funds if the
             ownership of homes acquired through the projects is transferred through
             foreclosures during the affordability period.

Recommendations

             We recommend that the Acting Director of HUD’s Indianapolis Office of
             Community Planning and Development require the State to

             2A.    Revise the amount of Program funds reported in HUD’s system as
                    disbursed for home-buyer new construction project number 24860 to
                    $45,324 ($51,700 disbursed less $6,376 not used).

             2B.    Revise its consolidated plan and action plan to include the recapture
                    provisions used for organizations’ home-buyer new construction projects
                    or revise the recapture provisions being used for the projects to comply
                    with the recapture provisions in the State’s consolidated plan and action



                                              14
       plan. If the State revises its consolidated plan and action plan, it needs to
       submit the consolidated plan and action plan to HUD for approval.

2C.    Revise the recapture provisions for the nine home-buyer new construction
       projects to reduce the affordability period to that required by the State and
       revise the amount of Program assistance subject to recapture for the seven
       projects to the amount of assistance that reduced the purchase price from
       fair market value to an affordable price for the home buyers.

2D.    Implement adequate procedures and controls to monitor the four home-
       buyer new construction projects to ensure that the homes remain the
       principal residences of the home buyers throughout the applicable
       affordability period. If the State does not implement adequate procedures
       and controls or the homes do not remain the principal residences of the
       home buyers throughout the applicable affordability period, the State
       should reimburse its Program $173,455 from non-Federal funds as
       appropriate.

2E.    Implement adequate procedures and controls to ensure that the
       affordability period is met for home-buyer new construction projects in
       accordance with the resale and recapture procedures contained in the
       State’s consolidated plan and action plan.

We recommend that the Acting Director of HUD’s Indianapolis Office of
Community Planning and Development

2F.    Ensures that the State uses the $6,376, which the Authority reimbursed the
       State’s treasury account for the Program funds that were not used for
       project number 24860, only for eligible Program costs.




                                 15
Finding 3: The Authority Lacked Adequate Controls Over
       Organizations’ Home-Buyer Acquisition-Only Activities
The Authority did not comply with HUD’s requirements in its use of Program funds for
community housing development organizations’ home-buyer acquisition-only activities. It (1)
did not implement appropriate recapture provisions for all 51 of the activities reviewed, (2) did
not reimburse the State’s Program until July 2011 for an activity in which the home was no
longer the household’s principal residence as of June 2010, (3) provided Program funds to assist
two households that were overincome, and (4) lacked sufficient documentation to support that
activities were eligible.

These weaknesses occurred because the Authority lacked adequate procedures and controls
regarding the activities to ensure that it appropriately followed HUD’s requirements. As a result,
the Authority (1) did not have $4,500 in Program funds available for eligible Program-funded
activities for more than 1 year, (2) inappropriately provided nearly $9,000 in Program funds to
assist two households that were overincome, and (3) was unable to support its use of more than
$182,000 in Program funds for 39 activities without sufficient documentation to support
eligibility. Further, the Authority is at risk of being required to reimburse the State’s Program
from non-Federal funds if the ownership of homes acquired through the activities is transferred
through foreclosures during the affordability period.



 The Authority Did Not
 Implement Appropriate
 Recapture Provisions for
 Activities and Did Not
 Reimburse the State’s Program
 From Non-Federal Funds

               We reviewed 51 of the 197 home-buyer acquisition-only activities that the
               Authority set up and completed in HUD’s Integrated Disbursement and
               Information System from July 1, 2008, through November 30, 2010. The
               Authority provided more than $237,000 in Program funds to six organizations—
               Affordable Housing Corporation; Community Action Program, Inc. of Evansville;
               Housing Opportunities, Inc.; Pathfinder Services, Inc.; Pathstone Corporation; and
               Southeastern Indiana Community Preservation and Development Corporation—
               for the 51 activities.

               HUD’s regulations at 24 CFR 91.220 state that if a participating jurisdiction
               intends to use Program funds for home buyers, it must state the guidelines for
               resale or recapture, as required in 24 CFR 92.254, in its action plan. HUD’s
               regulations at 24 CFR 92.254(a)(4) state that Program-assisted housing must meet
               HUD’s affordability requirements. Section 92.254(a)(5) states that to ensure
               affordability, a participating jurisdiction must impose either resale or recapture
               provisions that comply with the standards in section 92.254(a)(5) and include


                                               16
those provisions in its consolidated plan. Section 92.254(a)(5)(ii) states that a
participating jurisdiction’s recapture provisions must ensure that the participating
jurisdiction recoups all or a portion of the Program assistance to the home buyers
if the housing does not continue to be the principal residence of the household for
the duration of the period of affordability. Section 92.254(a)(5)(ii)(A) states that
in establishing its recapture provisions, the participating jurisdiction is subject to
the limitation that when the recapture provision is triggered by a voluntary or
involuntary sale of the housing unit and there are no net proceeds or the net
proceeds are insufficient to repay the Program investment due, the participating
jurisdiction may recapture only the net proceeds, if any. HUD’s regulations at
92.503(c) state that Program funds recaptured in accordance with 24 CFR
92.254(a)(5)(ii) must be deposited into the participating jurisdiction’s HOME
investment trust fund local account and used in accordance with the requirements
of 24 CFR Part 92.

HUD’s HOMEfires, volume 5, number 5, states that a participating jurisdiction
must select either the resale or recapture option for its Program-assisted home-
buyer projects at the time the assistance is provided. The participating
jurisdiction may select one option for all of its Program-assisted home-buyer
projects or choose on a case-by-case basis depending upon market conditions and
or the buyer’s preference. In addition, all options that the participating
jurisdiction will employ must be identified in its consolidated plan and approved
by HUD.

The State’s consolidated plan for 2005 through 2009 and action plan for 2009
state that the amount of Program funds to be recaptured is based on a pro rata
shared net sale proceeds calculation. If there are no proceeds, there is no
recapture. Any net sale proceeds that exist would be shared between the recipient
and the beneficiary based on the number of years of the affordability period that
have been fulfilled, not to exceed the original Program investment.

Contrary to HUD’s requirements and the State’s consolidated plan and action
plan, the Authority did not ensure that it implemented appropriate recapture
provisions for all 51 home-buyer acquisition-only activities reviewed. The
Authority used recapture provisions that were not included in the State’s
consolidated plan for 2005 through 2009 and action plan for Program year 2009.
The promissory notes, which were secured by second mortgages, between the
Authority and the home buyers required the home buyers to repay the entire
amount of assistance at or before maturity of the loan. The promissory notes
defined maturity as sale of the property, payoff or refinancing the first mortgage
on the property, or the home buyer changing his or her principal place of
residence from the property purchased. The promissory notes did not contain
language that limited the amount of Program funds the Authority could recapture
to the net proceeds from the sale of the property.




                                  17
           Further, the Authority drew down and disbursed $4,500 in Program funds to
           Affordable Housing Corporation from June 2009 through February 2010 for
           home-buyer acquisition-only activity number 24853. The household purchased
           the property in April 2009. However, the household moved, and the home was no
           longer the household’s principal residence as of June 2010. The Authority was
           not aware that the household had moved and was no longer residing in the home.
           In July 2011, more than 1 year after the household moved and as a result of our
           audit, the Authority reimbursed the State’s Program more than $4,500 from non-
           Federal funds.

The Authority Provided Nearly
$9,000 in Program Funds for
Two Ineligible Activities

           HUD’s regulations at 24 CFR 92.2 define a low-income household as a household
           with an annual income that does not exceed 80 percent of the median income for
           the area as determined by HUD. HUD’s regulations at 24 CFR 92.217 state that a
           participating jurisdiction must invest Program funds made available during a
           fiscal year so that with respect to home ownership assistance, 100 percent of these
           funds are invested in dwelling units that are occupied by households that qualify
           as low-income households.

           Contrary to HUD’s regulations, the Authority drew down and disbursed $8,585 in
           Program funds to Housing Opportunities, Inc., from November 2009 through May
           2010 to assist two households that were not income eligible. The Program funds
           were used to provide interest-free second mortgage loans to the home buyers for
           home-buyer acquisition-only activity numbers 25719 ($4,600) and 26432
           ($3,985). The household income exceeded HUD’s income guidelines by $985
           (2.1 percent) and $2,834 (7.5 percent) for activity numbers 25719 and 26432,
           respectively.

The Authority Lacked
Sufficient Documentation To
Support Its Use of More Than
$182,000 in Program Funds

           HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must
           establish and maintain sufficient records to demonstrate that each household that
           receives Program funds is income eligible in accordance with 24 CFR 92.203 and
           each activity meets the property standards in 24 CFR 92.251. Section
           92.508(c)(4) states that written agreements must be retained for 5 years after the
           agreement terminates. HUD’s HOMEfires, volume 6, number 2, states that a
           participating jurisdiction must perform inspections of Program units purchased
           with Program funds. Participating jurisdictions may not rely on independent



                                           18
inspections performed by any party not under contract with the participating
jurisdiction. Third parties such as consumer inspectors or Federal Housing
Administration (FHA) appraisers are not contractually obligated to perform the
participating jurisdictions’ obligations. Their inspections cannot be used to
determine compliance with Program property standards requirements.

Contrary to HUD’s requirements, the Authority lacked sufficient documentation
for 16 of the 51 home-buyer acquisition-only activities reviewed to support that it
used $73,335 in Program funds for eligible households and or activities. The 16
activities involved the following 4 organizations: Community Action Program,
Inc., of Evansville; Housing Opportunities, Inc.; Pathfinder Services, Inc.; and
Southeastern Indiana Community Preservation and Development Corporation.
The Authority lacked sufficient documentation to support that the households for
2 activities were income eligible and that homes for 14 activities met HUD’s
property standards requirements. The Authority could not provide 3 consecutive
months of income documentation, complete income verification documentation,
and or certified copies of tax returns for the two households. Further, neither the
Authority nor a party contracted by the Authority inspected the 14 homes. The
Authority relied on occupancy inspections performed by the cities or counties
where the homes were located or inspections performed by other inspectors not
under contract with the Authority. In addition, 7 of the 14 homes were new
construction homes.

Housing Opportunities, Inc., and Pathfinder Services, Inc., did not have third-
party inspections performed for activities that involved new construction homes.
Therefore, we reviewed an additional 23 activities completed by these two
organizations, which the Authority set up and completed in HUD’s system from
July 1, 2008, through November 30, 2010. The Authority also lacked sufficient
documentation for the additional 23 activities to support that it used $108,900 in
Program funds for homes that met HUD’s property standards requirements.

The table in appendix E of this report shows the 39 activities for which the
Authority did not have (1) sufficient income documentation to demonstrate that
households were income eligible and or (2) final inspection reports or
certifications supporting that homes met HUD’s property standards requirements.

The Authority had inspections for the remaining 37 home-buyer acquisition-only
activities initially selected for review. The inspections were performed by third-
party inspectors. However, the Authority could not provide contracts with the
inspectors that were effective at the time the inspectors inspected 18 of the homes.
The Authority provided $84,400 in Program funds to Affordable Housing
Corporation; Housing Opportunities, Inc.; Pathfinder Services, Inc.; and
Southeastern Indiana Community Preservation and Development Corporation for
the 18 activities.




                                 19
The Authority Lacked
Adequate Procedures and
Controls

           The weaknesses regarding the Authority’s (1) not implementing appropriate
           recapture provisions for the organizations’ home-buyer acquisition-only activities,
           (2) not reimbursing the State’s Program for an activity in which the home was no
           longer the household’s principal residence, (3) providing Program funds to assist
           two households that were overincome, and (4) lack of sufficient documentation to
           support that activities were appropriate and contracts with inspectors were
           effective at the time the inspectors inspected homes occurred because the
           Authority lacked adequate procedures and controls regarding organizations’
           activities to ensure that it appropriately followed HUD’s requirements.

           The Authority’s deputy counsel stated that the Authority’s staff members, who
           drafted the promissory notes between the Authority and the home buyers, were
           not aware that recapture provisions in the promissory notes needed to conform to
           the recapture provisions in the consolidated plan and action plan.

           Housing Opportunities, Inc., did not include overtime and bonus pay when
           calculating the annual income for the household associated with activity number
           25719 and used a Program income limit for the wrong area when determining the
           income eligibility for the household associated with activity number 26432.

           Housing Opportunities, Inc., and Southeastern Indiana Community Preservation
           and Development Corporation believed that although the income documentation
           that the organizations obtained for the households was not 3 consecutive months’
           worth of income documentation, it was sufficient for the organizations to make an
           accurate determination of whether the households were income eligible. The
           Authority did not inform the organizations that they were required to maintain 3
           consecutive months’ worth of income documentation on which to base a
           household’s projected income calculation.

           Housing Opportunities, Inc., was not aware that homes had to be inspected by the
           Authority or a party contracted by the Authority. Community Action Program,
           Inc., of Evansville’s director of housing programs stated that Community Action
           Program, Inc., of Evansville had issues with obtaining inspectors contracted by
           the Authority to perform inspections due to the inspectors’ workload. The
           Authority allowed Community Action Program, Inc., of Evansville to use any
           inspector as long as the inspector was licensed and qualified and inspected the
           entire home. Further, Pathfinder Services, Inc., was not aware that third-party
           inspections needed to be performed for activities that involved new construction
           homes.




                                           20
             The Authority’s deputy counsel stated that once the Authority executed current
             contracts with the inspectors, it discarded the prior contracts with the inspectors.
             A single family underwriter was not aware that HUD’s regulations at 24 CFR
             92.508(c)(4) required written agreements to be retained for 5 years after the
             agreements were terminated.

Conclusion

             The Authority lacked adequate procedures and controls regarding organizations’
             home-buyer acquisition-only activities to ensure that it appropriately followed
             HUD’s requirements. It (1) did not implement appropriate recapture provisions
             for all 51 of the activities reviewed, (2) did not have $4,500 in Program funds
             available for eligible Program-funded activities for more than 1 year, (3)
             inappropriately provided nearly $9,000 in Program funds to assist two households
             that were not income eligible, and (4) was unable to support its use of more than
             $182,000 in Program funds for 39 activities without sufficient documentation to
             support eligibility. Further, the Authority is at risk of being required to reimburse
             the State’s Program from non-Federal funds if the ownership of homes acquired
             through the activities is transferred through foreclosures during the affordability
             period.

Recommendations

             We recommend that the Acting Director of HUD’s Indianapolis Office of
             Community Planning and Development require the State to

             3A.    Revise its consolidated plan and action plan to include the recapture
                    provisions the Authority uses for organizations’ home-buyer acquisition-
                    only activities or revise the recapture provisions the Authority uses for the
                    activities to comply with the recapture provisions in the State’s
                    consolidated plan and action plan. If the State revises its consolidated
                    plan and action plan, it needs to submit the consolidated plan and action
                    plan to HUD for approval.

             3B.    Reimburse its Program $8,585 from non-Federal funds for the Program
                    funds inappropriately used to assist home-buyer acquisition-only activity
                    numbers 25719 ($4,600) and 26432 ($3,985).

             3C.    Provide supporting documentation or reimburse its Program from non-
                    Federal funds, as appropriate, for the $173,650 in Program funds used for
                    the 37 households and or home-buyer acquisition-only activities for which
                    the Authority did not have (1) sufficient income documentation to
                    demonstrate that households were income eligible and or (2) final
                    inspection reports or certifications supporting that activities met HUD’s



                                              21
       property standards requirements. We did not include $8,585 in Program
       funds used for activity numbers 25719 ($4,600) and 26432 ($3,985) for
       which the Authority did not have final inspection reports or certifications
       supporting that the activities met HUD’s property standards requirements
       since we included it in recommendation 3B of this report.

3D.    Implement adequate procedures and controls to ensure that (1) the
       Authority recaptures Program funds used for activities that no longer meet
       HUD’s affordability requirements, (2) Program funds are used only for
       eligible households, (3) all homes are inspected by the Authority or a third
       party contracted by the Authority to ensure that the homes meet HUD’s
       property standards requirements, and (4) the Authority maintains
       documentation to sufficiently support the eligibility of households and
       home-buyer acquisition-only activities in accordance with HUD’s
       requirements.

3E.    Implement adequate procedures and controls to ensure that the Authority
       maintains all contracts with third-party inspectors for at least 5 years after
       the contracts terminate.

We recommend that the Acting Director of HUD’s Indianapolis Office of
Community Planning and Development

3F.    Ensures that the State uses the $4,500, which the Authority reimbursed the
       State’s Program for the repaid Program funds associated home-buyer
       acquisition-only activity number 24853, only for eligible Program costs.




                                 22
Finding 4: The Authority Lacked Adequate Controls Over
          Organizations’ Home-Buyer Rehabilitation Projects
The Authority did not comply with HUD’s requirements in its use of Program funds for
community housing development organizations’ home-buyer rehabilitation projects. It (1) did
not implement appropriate recapture provisions for 3 of the 15 projects reviewed and (2) lacked
sufficient documentation to support that 6 households were income eligible. These weaknesses
occurred because the Authority lacked adequate procedures and controls regarding the projects to
ensure that it appropriately followed HUD’s requirements. As a result, it was unable to support
its use of nearly $219,000 in Program funds for six projects without sufficient documentation to
demonstrate that households were income eligible. Further, the Authority is at risk of being
required to reimburse the State’s Program from non-Federal funds if the ownership of homes
acquired through the projects is transferred through foreclosures during the affordability period.



 The Authority Did Not
 Implement Appropriate
 Recapture Provisions for
 Projects

               We reviewed all 15 home-buyer rehabilitation projects that the Authority set up
               and completed in HUD’s Integrated Disbursement and Information System from
               July 1, 2008, through November 30, 2010. The Authority provided $514,399 in
               Program funds to two organizations—Housing Partnerships, Inc, and La Casa of
               Goshen, Inc.—for the 15 projects.

               HUD’s regulations at 24 CFR 91.220 state that if a participating jurisdiction
               intends to use Program funds for home buyers, it must state the guidelines for
               resale or recapture, as required in 24 CFR 92.254, in its action plan. HUD’s
               regulations at 24 CFR 92.254(a)(4) state that Program-assisted housing must meet
               HUD’s affordability requirements. Section 92.254(a)(5) states that to ensure
               affordability, a participating jurisdiction must impose either resale or recapture
               provisions that comply with the standards of section 92.254(a)(5) and include
               those provisions in its consolidated plan. Section 92.254(a)(5)(ii)(A) states that in
               establishing its recapture provisions, the participating jurisdiction is subject to the
               limitation that when the recapture provision is triggered by a voluntary or
               involuntary sale of the housing unit and there are no net proceeds or the net
               proceeds are insufficient to repay the Program investment due, the participating
               jurisdiction recapture only the net proceeds, if any.

               HUD’s HOMEfires, volume 5, number 5, states that a participating jurisdiction
               must select either the resale or recapture option for its Program-assisted home-
               buyer projects at the time the assistance is provided. The participating
               jurisdiction may select one option for all of its Program-assisted home-buyer
               projects or choose on a case-by-case basis depending upon market conditions and


                                                 23
           or the buyer’s preference. In addition, all options that the participating
           jurisdiction will employ must be identified in its consolidated plan and approved
           by HUD.

           The State’s consolidated plan for 2005 through 2009 and action plan for 2009
           state that the amount of Program funds to be recaptured is based on a pro rata
           shared net sale proceeds calculation. If there are no proceeds, there is no
           recapture. Any net sale proceeds that exist would be shared between the recipient
           and the beneficiary based on the number of years of the affordability period that
           have been fulfilled, not to exceed the original Program investment.

           Contrary to HUD’s requirements and the State’s consolidated plan and action
           plan, the Authority did not ensure that appropriate recapture provisions were
           implemented for 3 of the 15 home-buyer rehabilitation projects reviewed. The
           project numbers were 23964, 24412, and 24413. Housing Partnerships, Inc., used
           recapture provisions that were not included in the State’s consolidated plan for
           2005 through 2009 and action plan for Program year 2009.

           The promissory notes, which were secured by second mortgages, between
           Housing Partnerships, Inc., and the home buyers, required the home buyers to
           repay the amount of downpayment assistance not forgiven over the affordability
           period if any of the following occurred: (1) transfer of the property through sale,
           contract, lease, or other transfer of ownership and the prospective home buyer did not
           assume the note and mortgage or did not qualify as low income, (2) the home buyer
           did not occupy the property as his or her principal residence; (3) restrictions or
           encumbrances were placed on the property that would unduly restrict the good and
           marketable nature of the home buyer’s ownership interest; or (4) the property was
           refinanced or the terms of the first mortgage on the property were changed without
           the prior written consent of Housing Partnerships, Inc. The promissory notes did
           not contain language that limited the amount of Program funds the Authority
           could recapture to the net proceeds from the sale of the property. Further, the
           promissory notes for the three projects also included an affordability period
           longer than required by the State’s action plan for Program year 2009.

The Authority Lacked
Sufficient Documentation To
Support Its Use of Nearly
$219,000 in Program Funds

           HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must
           establish and maintain sufficient records to demonstrate that each household that
           receives Program funds is income eligible in accordance with 24 CFR 92.203.

           Contrary to HUD’s regulations, the Authority lacked sufficient income
           documentation for 6 of the 15 home-buyer rehabilitation projects reviewed to
           support that it used nearly $219,000 in Program funds for eligible households.


                                             24
           The Authority lacked 3 consecutive months of income documentation, had
           incomplete income verification documentation, and or did not have certified
           copies of tax returns. The following table shows the six projects for which the
           Authority did not have sufficient income documentation to demonstrate that
           households were income eligible.

                                         Activity   Amount of
                                         number     assistance
                                          23964         $46,414
                                          24983          34,588
                                          24985          33,515
                                          24986          37,524
                                          25498          34,317
                                          25499          32,559
                                          Total       $218,917


The Authority Lacked
Adequate Procedures and
Controls

           The weaknesses regarding the Authority’s (1) not implementing appropriate
           recapture provisions for an organization’s home-buyer rehabilitation projects and
           (2) lack of sufficient documentation to support that households were income
           eligible occurred because the Authority lacked adequate procedures and controls
           regarding organizations’ projects to ensure that it appropriately followed HUD’s
           requirements.

           The president of Housing Partnerships, Inc., stated that the Authority did not
           provide it specific language regarding recapture provisions to include in its
           promissory notes with the home buyers. The president also stated that the
           recapture provisions for the three home-buyer rehabilitation projects included an
           affordability period longer than required by the State’s action plan for Program
           year 2009 because Housing Partnerships, Inc., based the affordability period on
           the entire amount of Program funds drawn down for the projects rather than the
           amount of assistance that reduced the purchase price from fair market value to an
           affordable price for the home buyers.

           Housing Partnerships, Inc., and La Casa of Goshen, Inc., believed that although
           the income documentation that the organizations obtained for the households was
           not 3 consecutive months’ worth of income documentation, it was sufficient for
           the organizations to make an accurate determination of whether the households
           were income eligible. The Authority did not inform the organizations that it was
           required to maintain 3 consecutive months’ worth of income documentation on
           which to base a household’s projected income calculation.




                                           25
Conclusion

             The Authority lacked adequate procedures and controls regarding the
             organizations’ home-buyer rehabilitation projects to ensure that it appropriately
             followed HUD’s requirements. It (1) did not implement appropriate recapture
             provisions for 3 of the 15 projects reviewed and (2) was unable to support its use
             of nearly $219,000 in Program funds for 6 projects without sufficient
             documentation to demonstrate that households were income eligible. Further, the
             Authority is at risk of being required to reimburse the State’s Program from non-
             Federal funds if the ownership of homes acquired through the projects is
             transferred through foreclosures during the affordability period.

Recommendations

             We recommend that the Acting Director of HUD’s Indianapolis Office of
             Community Planning and Development require the State to

             4A.    Revise its consolidated plan and action plan to include the recapture
                    provisions used for organizations’ home-buyer rehabilitation projects or
                    revise the recapture provisions that Housing Partnerships, Inc., uses for
                    projects to comply with the recapture provisions in the State’s
                    consolidated plan and action plan. If the State revises its consolidated
                    plan and action plan, it needs to submit the consolidated plan and action
                    plan to HUD for approval.

             4B.    Revise the recapture provisions for the three home-buyer rehabilitation
                    projects to reduce the affordability period to that required by the State.

             4C.    Provide supporting documentation or reimburse its Program from non-
                    Federal funds, as appropriate, for the $218,917 in Program funds used for
                    the six home-buyer rehabilitation projects for which the Authority did not
                    have sufficient documentation to demonstrate that households were
                    income eligible.

             4D.    Implement adequate procedures and controls to ensure that it maintains
                    documentation to sufficiently support the eligibility of households in
                    accordance with HUD’s requirements.




                                              26
Finding 5: The Authority Lacked Adequate Controls Over Its
                 Administration of Program Income
The Authority did not comply with HUD’s requirements in its use and reporting of the State’s
Program income. It (1) drew down more than $24.8 million in Program funds from the State’s
HOME investment trust fund treasury account from July 1, 2008, through November 30, 2010,
when it had available Program income in the State’s HOME investment trust fund local account;
(2) did not always appropriately account for Program income; (3) lacked sufficient
documentation to identify the source and application of Program income receipts and
disbursements; and (4) did not report in HUD’s Integrated Disbursement and Information System
more than $162,000 in Program income receipts for more than 1 year. These weaknesses
occurred because the Authority lacked adequate procedures and controls regarding its
administration of the State’s Program income to ensure that it appropriately followed HUD’s
requirements. As a result, HUD lost nearly $15,000 in interest on the Program funds that the
Authority drew down from the State’s treasury account when Program income was available.
Further, HUD and the State lacked assurance regarding the amount of Program income available
to the Authority.



 The Authority Inappropriately
 Drew Down Program Funds
 When It Had Program Income

              HUD’s regulations at 24 CFR 92.502(c)(3) state that a participating jurisdiction
              must disburse Program funds, including Program income and recaptured Program
              funds, in its local account before requesting Program funds from its treasury
              account.

              Contrary to HUD’s regulations, the Authority did not always properly use income
              generated from the State’s Program. It inappropriately made 2,132 drawdowns
              from the State’s treasury account from July 1, 2008, through November 30, 2010,
              when it had available Program income in the State’s local account. The
              drawdowns totaled more than $24.8 million in Program funds. HUD lost $14,736
              in interest on the more than $24.8 million in Program funds that the Authority
              drew down from the State’s treasury account when Program income was
              available. We were conservative in our determination of the amount of interest
              HUD lost. We used the 10-year U.S. Treasury’s rate using simple interest on the
              Authority’s daily balance of Program income. Further, we did not include in the
              Authority’s daily balance of Program income any Program income received
              during a month until the 1st day of the following month.




                                             27
The Authority Did Not Always
Appropriately Account for and
Lacked Sufficient
Documentation To Support
Program Income

           HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must
           establish and maintain sufficient records to enable HUD to determine whether it
           has met the requirements of 24 CFR Part 92. The participating jurisdiction must
           maintain records identifying the source and application of program income,
           repayments, and recaptured funds. HUD’s Community Planning and Development
           Notice 97-9, issued September 12, 1997, requires participating jurisdictions to be
           able to identify which projects generated Program income and which projects
           received Program income, including the amount.

           Although the Authority used a spreadsheet to track its receipts and disbursements
           of Program income, it did not always appropriately account for Program income
           in the spreadsheet. The Authority did not include in the spreadsheet (1) more than
           $162,000 in Program income receipts from 2006 through 2007 until January
           2009, (2) nearly $16,000 in Program income disbursements until April 2010, and
           (3) nearly $16,000 in Program income receipts until August (nearly $4,000) and
           September (more than $12,000) 2010. Further, it lacked sufficient documentation
           to identify the source and application of the Program income receipts and
           disbursements.

           In addition, the Authority (1) did not include in the spreadsheet nearly $7,000 in
           Program income disbursements made in August 2008 (more than $6,000) and
           February 2010 (more than $400), (2) incorrectly included in the spreadsheet
           nearly $6,000 in Program income receipts in March 2009 that were actually
           Program income disbursements, and (3) inaccurately included in the spreadsheet
           more than $45,000 in Program income disbursements in November 2009 (nearly
           $37,000) and September 2010 (nearly $9,000) that were not disbursements from
           Program income. Therefore, its balance of Program income was understated by
           more than $27,000 as of June 2011. In July 2011 and as a result of our audit, the
           Authority made the necessary corrections to the spreadsheet so that its Program
           income was no longer understated.

The Authority’s Reporting of
More Than $160,000 in
Program Income to HUD Was
Not Timely

           HUD’s Community Planning and Development Notice 97-9 requires available
           Program income to be determined and recorded in HUD’s system in periodic



                                           28
             intervals not to exceed 30 days. However, the Authority did not report in HUD’s
             system the more than $162,000 in Program income receipts from 2006 through
             2007 until January 2009.

The Authority Lacked
Adequate Procedures and
Controls

             The weaknesses regarding the Authority’s (1) drawing down of Program funds
             from the State’s treasury account when it had available Program income in the
             State’s local account, (2) not always appropriately accounting for Program
             income, (3) lack of sufficient documentation to identify the source and application
             of Program income receipts and disbursements, and (4) not reporting Program
             income in HUD’s system in a timely manner occurred because the Authority
             lacked adequate procedures and controls regarding its administration of Program
             income to ensure that it appropriately followed HUD’s requirements.

             The Authority’s deputy counsel stated that the Authority drew down Program
             funds from the State’s treasury account when it had available Program income in
             the State’s local account because it was cautious about disbursing Program
             income since it was not confident that the amount of Program income in the local
             account was accurate.

Conclusion

             The Authority lacked adequate procedures and controls regarding its
             administration of the State’s Program income to ensure that it appropriately
             followed HUD’s requirements. It (1) inappropriately drew down more than $24.8
             million in Program funds from the State’s treasury account from July 1, 2008,
             through November 30, 2010, when it had available Program income in the State’s
             local account that resulted in HUD’s losing nearly $15,000 in interest; (2) did not
             always appropriately account for Program income; (3) lacked sufficient
             documentation to identify the source and application of Program income receipts
             and disbursements; and (4) did not report in HUD’s system more than $162,000 in
             Program income receipts for more than 1 year. Further, HUD and the State
             lacked assurance regarding the amount of Program income available to the
             Authority.

Recommendations

             We recommend that the Acting Director of HUD’s Indianapolis Office of
             Community Planning and Development require the State to




                                             29
5A.   Reimburse HUD $14,736 from non-Federal funds for the interest HUD
      lost on the Program funds that the Authority drew down from the State’s
      treasury account when program income was available.

5B.   Implement adequate procedures and controls to ensure that available
      Program income is used for eligible housing activities before Program
      funds are drawn down from its treasury account.

5C.   Implement adequate procedures and controls to ensure that sufficient
      documentation is maintained to identify the source and application of
      Program income receipts and disbursements and Program income is
      accurately accounted for in its spreadsheet and reported in HUD’s system.




                              30
                          SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

           Applicable laws; HUD’s regulations at 24 CFR Parts 91 and 92; HUD’s “Building
            HOME: A Program Primer”; HUD’s HOMEfires, volume 5, numbers 2 and 5, and
            volume 6, number 2; HUD’s Technical Guide for Determining Income and
            Allowances for the Program; and HUD’s Office of Community Planning and
            Development Notice 97-9.

           The State’s data from HUD’s Integrated Disbursement and Information System,
            consolidated plan for 2005 through 2009, action plans for 2008 and 2009, and
            consolidated annual performance and evaluation reports for 2008 and 2009.

           The Authority’s accounting records; audited financial statements for 2008 and 2009;
            single audits for 2009; Program data; Program award and community housing
            development organizations’ rental rehabilitation and new construction project, home-
            buyer new construction project, home-buyer acquisition-only activity, and home-buyer
            rehabilitation project files; contracts with inspectors; policies and procedures;
            organizational chart; and board meeting minutes from July 2008 through November
            2010.

           Organizations’ home-buyer new construction project, home-buyer acquisition-only
            activity, and home-buyer rehabilitation project files.

           HUD’s files for the State.

We also interviewed the Authority’s and organizations’ employees and HUD’s staff.

Finding 1

We selected terminated rental rehabilitation and new construction project number 22460 due to
the project being a predevelopment loan in the amount of $395,000 in Program funds while the
other predevelopment loans for 14 projects that the Authority set up or completed in HUD’s
system from July 1, 2008, through November 30, 2010, were for $30,000 or less in Program
funds or resulted in a completed construction project. We selected the project to determine
whether the Authority complied with HUD’s regulations in its use of Program funds for the
project.

Finding 2

We selected all 45 of the home-buyer new construction projects that the Authority set up and
completed in HUD’s system from July 1, 2008, through November 30, 2010, to determine
whether the Authority implemented appropriate resale or recapture provisions for projects and
complied with HUD’s requirements in its use of Program funds for projects. The Authority


                                                31
provided nearly $1.9 million in Program funds to 10 organizations—Affordable Housing
Corporation; Family Christian Development Center; Habitat for Humanity of Elkhart County;
Habitat for Humanity of Monroe County; Habitat for Humanity of Morgan County; Habitat for
Humanity of Whitley County; Housing Opportunities, Inc.; Jeffersonville Housing Services
Corporation; La Casa of Goshen, Inc.; and Pathfinder Services, Inc.—for the 45 projects.

Finding 3

We statistically selected 51 of the 197 home-buyer acquisition-only activities that the Authority
set up and completed in HUD’s system from July 1, 2008, through November 30, 2010, to
determine whether the Authority implemented appropriate recapture provisions for activities and
complied with HUD’s requirements in its use of Program funds for activities. The Authority
provided more than $237,000 in Program funds to six organizations—Affordable Housing
Corporation; Community Action Program, Inc. of Evansville; Housing Opportunities, Inc.;
Pathfinder Services, Inc.; Pathstone Corporation; and Southeastern Indiana Community
Preservation and Development Corporation—for the 51 activities. Our sampling criteria used a
90 percent confidence level, 50 percent error rate, and precision of plus or minus 10 percent.
The Authority lacked sufficient documentation to support that homes for 14 activities met
HUD’s property standards requirements. In addition, 7 of the 14 homes involved the purchase of
new construction homes. Housing Opportunities, Inc., and Pathfinder Services, Inc., did not
have third-party inspections performed for activities that involved new construction homes.
Therefore, we selected the remaining 23 activities completed by these two organizations which
the Authority set up and completed in HUD’s system from July 1, 2008, through November 30,
2010.

Finding 4

We reviewed all 15 of the home-buyer rehabilitation projects that the Authority set up and
completed in HUD’s system from July 1, 2008, through November 30, 2010, to determine
whether the Authority implemented appropriate recapture provisions for projects and complied
with HUD’s requirements in its use of Program funds for projects. The Authority provided more
than $514,000 in Program funds to two organizations—Housing Partnerships, Inc, and La Casa
of Goshen, Inc.—for the 15 projects.

We relied in part on data maintained by the Authority for the State’s Program and data in HUD’s
system. Although we did not perform detailed assessments of the reliability of the data, we
performed minimal levels of testing and found the data to be adequately reliable for our
purposes.

We performed our onsite audit work from January through April 2011 at the Authority’s office
located at 30 South Meridian Street, Indianapolis, IN. The audit covered the period July 2008
through November 2010 and was expanded as determined necessary.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We



                                                 32
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                 33
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                     Effectiveness and efficiency of operations – Policies and procedures that
                      management has implemented to reasonably ensure that a program meets
                      its objectives.

                     Reliability of financial reporting – Policies and procedures that
                      management has implemented to reasonably ensure that valid and reliable
                      data are obtained, maintained, and fairly disclosed in reports.

                     Compliance with applicable laws and regulations – Policies and
                      procedures that management has implemented to reasonably ensure that
                      resource use is consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness and efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws or regulations on a
               timely basis.




                                                 34
Significant Deficiency

            Based on our review, we believe that the following item is a significant deficiency:

               The Authority lacked adequate procedures and controls to ensure that (1) the
                State’s HOME investment trust fund treasury account was reimbursed for
                Program funds used for a community housing development organization’s
                terminated rental rehabilitation and new construction project; (2) it
                implemented appropriate recapture provisions for organizations’ home-buyer
                new construction projects, home-buyer acquisition-only activities, and home-
                buyer rehabilitation projects; (3) homes for organizations’ home-buyer new
                construction projects would remain the principal residences of the home
                buyers throughout the affordability period; (4) it used Program funds for
                organizations’ home-buyer new construction projects, home-buyer acquisition-
                only activities, and home-buyer rehabilitation projects in accordance with
                HUD’s requirements, (5) the State’s Program was reimbursed for Program funds
                used for an organization’s home-buyer acquisition-only activity in which the
                home was no longer the household’s principal residence; and (6) it complied
                with HUD’s requirements in its use and reporting of the State’s Program
                income (see findings 1, 2, 3, 4, and 5).




                                             35
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

          Recommendation                                              Funds to be put
              number            Ineligible 1/        Unsupported 2/   to better use 3/
                1A                                                          $395,000
                2D                    173,455
                2F                                                              6,376
                3B                       8,585
                3C                                         173,650
                3F                                                              4,500
                4C                                         218,917
                5A                     14,736
               Totals                $196,776             $392,567          $405,876


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, implementation of our recommendations
     will ensure that the State’s Program funds are used according to HUD’s regulations.




                                                36
Appendix B

            AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation       Auditee Comments




Comment 1




                             37
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 1




Comment 1




Comment 1




Comment 1




                         38
Ref to OIG Evaluation   Auditee Comments




Comment 1

Comment 1




Comment 1




Comment 1




Comment 2




Comment 3




                         39
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




Comment 5




                         40
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 6




Comment 5


Comment 7




Comment 2




                         41
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 8




Comment 9




Comment 9




Comment 10



Comment 11

Comments 10
 and 11




                         42
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 12




Comment 8




                         43
Ref to OIG Evaluation   Auditee Comments




Comment 13
Comment 7
Comments 13
 and 14
Comment 14
 and 15



Comments 14
 and 16



Comments 14
 and 16




                         44
Ref to OIG Evaluation   Auditee Comments




Comments 14
 and 16



Comment 17




Comment 2




Comment 6




                         45
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 18




Comment 19




Comment 20


Comment 19




                         46
Ref to OIG Evaluation   Auditee Comments




Comment 19




Comment 19




Comment 19




Comment 19




Comments 18
 and 21




                         47
Ref to OIG Evaluation   Auditee Comments




Comments 18
   and 21




Comment 22



Comment 23




                         48
Ref to OIG Evaluation   Auditee Comments




Comment 24
Comments 24
 and 25

Comment 22
Comment 26
Comment 22


Comment 23




Comments 24
 and 25



Comments 24
  and 27

Comment 25


Comment 25

Comment 25




                         49
Ref to OIG Evaluation   Auditee Comments




Comment 25

Comment 25

Comments 25
 and 28
Comment 25


Comments 22,
 23, 24, and 29




Comments 23
 and 30




Comment 22




Comments 22,
 23, 24, and 29




                         50
Ref to OIG Evaluation   Auditee Comments




Comment 22


Comment 29




Comments 22
 and 31




Comments 23,
 24, 31, and 32




                         51
Ref to OIG Evaluation   Auditee Comments




                         52
                         OIG Evaluation of Auditee Comments

Comment 1   HUD’s regulations at 24 CFR (Code of Federal Regulations) 92.205(e) state that a
            Program-assisted project that is terminated before completion, either voluntarily
            or otherwise, constitutes an ineligible activity and any Program funds invested in
            the project must be repaid to the participating jurisdiction’s HOME investment
            trust fund in accordance with 24 CFR 92.503(b). HUD’s regulations at 24 CFR
            92.503(b)(2) state that except for repayments of project-specific organization
            loans which are waived in accordance with 24 CFR 92.301(a)(3) and
            92.301(b)(3), any Program funds invested in a project that is terminated before
            completion, either voluntarily or otherwise, must be repaid by the participating
            jurisdiction in accordance with section 92.503(b)(3). Section 92.503(b)(3) states
            that if the Program funds were disbursed from the participating jurisdiction’s
            HOME investment trust fund treasury account, the funds must be repaid to the
            participating jurisdiction’s treasury account.

            In November 2009, the Authority terminated rental rehabilitation and new
            construction project number 22460 and determined that it would require the
            repayment of nearly $191,000 in non-predevelopment costs. It also
            inappropriately determined that it would (1) reclassify nearly $194,000 in
            predevelopment costs of for the project as a project-specific community housing
            development organization predevelopment loan and then (2) waive the repayment
            of the loan. Further, it did not consider the nearly $11,000 for the repayment of
            the predevelopment loan.

            In January 2011, the Authority entered into a repayment agreement with Southern
            Indiana Homeownership, Incorporated, for more than $83,000. As of February
            2011, the Authority was trying to enter into a repayment agreement with the
            construction company that did work on the project for the remaining nearly
            $108,000. Further, the Authority had not reimbursed the State’s treasury account
            any of the Program funds used for the rental rehabilitation and new construction
            project.

            Therefore, the Authority had inappropriately determined that it was only
            responsible for reimbursing the State’s treasury account nearly $191,000 of the
            $395,000 in Program funds used for the terminated project. Further, it was not
            planning on reimbursing the State’s treasury account until Southern Indiana
            Homeownership, Incorporated, and the construction company made repayments
            to the Authority for the nearly $191,000.

            The Authority is correct in that HUD’s regulations do not include a timeframe in
            which a participating jurisdiction must reimburse its treasury account for any
            Program funds invested in a project that is terminated before completion.
            However, HUD expects a participating jurisdiction to promptly reimburse its
            treasury account for any Program funds invested in a project that is terminated
            before completion. HUD does not consider the 15 months that the Authority took



                                            53
            to reimburse the State’s treasury account $395,000 from non-Federal funds for the
            terminated project to be timely.

            The Authority did not comply with HUD’s regulations when it did not reimburse
            the State’s treasury account until March 2011 for $395,000 in Program funds used
            for an organization’s rental rehabilitation and new construction project that was
            terminated in November 2009. This weakness occurred because the Authority
            lacked adequate procedures and controls to reimburse the State’s treasury account
            for Program funds used for a terminated project. As a result, the Authority did
            not have $395,000 in Program funds available for eligible Program-funded
            activities for more than 15 months.

Comment 2   The titles of findings 2, 3, and 4 do not imply that the Authority lacks policies or
            does not communicate these procedures to its subrecipients. The titles to the
            findings state that the Authority lacked adequate controls over community
            housing development organizations’ home-buyer new construction projects,
            home-buyer acquisition-only activities, and home-buyer rehabilitation projects.

Comment 3   In March 2010, Affordable Housing Corporation informed the Authority that it
            did not use the more than $6,000 in Program funds for downpayment assistance
            for home-buyer new construction project number 24860 due to the home buyer
            receiving a U.S. Department of Agriculture loan that financed the entire purchase
            price of the home. The Authority did not allow Affordable Housing Corporation
            to return the more than $6,000 in unused Program funds by submitting a revised
            claim for the project. The Authority’s deputy counsel said that due to a
            misunderstanding between the Authority and Affordable Housing Corporation,
            the Authority did not allow Affordable Housing Corporation to return the more
            than $6,000 in unused Program funds for project number 24860. Therefore, the
            Authority did not sufficiently follow up with Affordable Housing Corporation to
            determine what happened with the project and ensure that Affordable Housing
            Corporation repaid the more than $6,000 in unused Program funds.

Comment 4   We revised the report to state the following:

               The Authority reported in HUD’s Integrated Disbursement and Information
                System that home-buyer new construction project number 24860 was
                completed in March 2010. In August 2011, more than 17 months after the
                project was entered as completed in HUD’s system and as a result of our
                audit, the Authority reimbursed the State’s treasury account more than $6,000
                from non-Federal funds.

               The Authority did not have more than $6,000 in Program funds available for
                eligible Program-funded activities for more than 17 months.




                                             54
            We revised recommendation 1A to state the following:

               Revise the amount of Program funds reported in HUD’s system as disbursed
                for home-buyer new construction project number 24860 to $45,324 ($51,700
                disbursed less $6,376 not used).

            We also added recommendation 2F to state the following:

               Ensures that the State uses the $6,376, which the Authority reimbursed the
                State’s treasury account for the Program funds that were not used for project
                number 24860, only for eligible Program costs.

Comment 5   The Authority provided templates of its new lien and restrictive covenant
            agreements for its home-buyer activities. The templates contained resale and
            recapture provisions, including affordability periods, which complied with the
            State’s consolidated plan and action plan. However, of the 43 home-buyer new
            construction projects we reviewed that did not involve the Authority only
            providing development subsidies, the inappropriate recapture provisions for 2
            projects (project numbers 26447 and 26974) were included in documents that
            were dated after July 2010. Contrary to HUD’s requirements and the State’s
            consolidated plan and action plan, the Authority did not ensure that it
            implemented appropriate recapture provisions for the two projects. The
            promissory notes, which were secured by second mortgages, between the
            Authority and the home buyers for these 2 projects required the home buyers to
            repay the entire amount of home-buyer assistance at or before maturity of the
            loan. The promissory notes defined maturity as the sale of the property, the
            payoff or refinancing of the first mortgage on the property, or the home buyer’s
            changing his or her principal place of residence from the property purchased.
            Further, the recapture provisions did not contain language that limited the amount
            of Program funds the Authority could recapture to the net proceeds from the sale
            of the property. Therefore, the templates do not support that the Authority revised
            the recapture provisions, including affordability periods, being used for the
            projects to comply with the recapture provisions in the State’s consolidated plan
            and action plan.

Comment 6   The Authority’s planned corrective actions, if fully implemented, should resolve
            the issues and recommendations cited in this audit report, as applicable.

Comment 7   HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must
            establish and maintain sufficient records to enable HUD to determine whether it
            has met the requirements of 24 CFR Part 92. The participating jurisdiction must
            maintain records demonstrating that each homeowner project meets the
            affordability requirements of 24 CFR 92.254 for the required period. HUD’s
            regulations at 24 CFR 92.254(a)(3) state that the housing must be the principal
            residence of the family throughout the affordability period.




                                            55
Comment 8     Southeastern Indiana Community Preservation and Development Corporation
              previously provided documentation to support that the household for home-buyer
              acquisition-only activity number 25034 was income eligible.

              Therefore, we revised the report to state the following:

                 Contrary to HUD’s requirements, the Authority lacked sufficient
                  documentation for 16 of the 51 home-buyer acquisition-only activities
                  reviewed to support that it used $73,335 in Program funds for eligible
                  households and or activities. The 16 activities involved the following 4
                  organizations: Community Action Program, Inc., of Evansville; Housing
                  Opportunities, Inc.; Pathfinder Services, Inc.; and Southeastern Indiana
                  Community Preservation and Development Corporation. The Authority
                  lacked sufficient documentation to support that the households for 2 activities
                  were income eligible and that homes for 14 activities met HUD’s property
                  standards requirements.

                 The table in appendix E of this report shows the 39 activities for which the
                  Authority did not have (1) sufficient income documentation to demonstrate
                  that households were income eligible and or (2) final inspection reports or
                  certifications supporting that homes met HUD’s property standards
                  requirements.

              We also revised recommendation 3C to reflect these revisions.

              In addition, we revised the table in appendix E of this report by removing the
              entry showing that the Authority had insufficient income documentation for
              activity number 25034.

              We informed the Authority that we removed activity number 25451, not activity
              number 25085, as an activity for which the Authority lacked sufficient
              documentation to support that the household was income eligible. We did not
              include activity number 25451 in this report as an activity for which the Authority
              lacked sufficient documentation to support that the household was income
              eligible.

Comment 9     The Authority provided occupancy inspections performed by the cities or counties
              where the homes were located or inspections performed by other inspectors not
              under contract with the Authority to support that activities met HUD’s property
              standards requirements. Therefore, the Authority relied on occupancy inspections
              performed by the cities or counties where the homes were located or inspections
              performed by other inspectors not under contract with the Authority.

Comment 10 We are not implying that it was the Authority’s policy to discard prior contracts
           with the inspectors. The audit report includes statements from the Authority’s




                                               56
              deputy counsel that once the Authority executed current contracts with the
              inspectors it discarded the prior contracts with the inspectors.

              We revised the report to state the following:

                 A single family underwriter was not aware that HUD’s regulations at 24 CFR
                  92.508(c)(4) required written agreements to be retained for 5 years after the
                  agreements terminated.

Comment 11 The Authority did not provide documentation to support that its general counsel
           provided training to its Single Family Department on the record retention
           requirements contained HUD’s regulations at 24 CFR 92.616(i). Further, HUD’s
           regulations in 24 CFR 92.616(i) are applicable to activities funded with American
           Dream Downpayment Initiative funds.

Comment 12 The Authority provided documentation to support that it reimbursed the State’s
           treasury account $8,585 from the State’s HOME investment trust fund local
           account. However, it did not provide documentation to support that the
           reimbursement was from non-Federal funds.

Comment 13 The Authority drew down and disbursed $4,500 in Program funds to Affordable
           Housing Corporation from June 2009 through February 2010 for home-buyer
           acquisition-only activity number 24853. The household purchased the property in
           April 2009. However, the household moved, and the home was no longer the
           household’s principal residence as of June 2010. The Authority was not aware
           that the household had moved and was no longer residing in the home. In July
           2011, more than 1 year after the household moved and as a result of our audit, the
           Authority reimbursed the State’s Program more than $4,500 from non-Federal
           funds.

Comment 14 This weakness occurred because the Authority lacked adequate procedures and
           controls regarding organizations’ home-buyer acquisition-only activities to ensure
           that it appropriately followed HUD’s requirements.

Comment 15 Contrary to HUD’s regulations, the Authority drew down and disbursed $8,585 in
           Program funds to Housing Opportunities, Inc., from November 2009 through May
           2010 to assist two households that were not income eligible. The Program funds
           were used to provide interest-free second mortgage loans to the home buyers for
           home-buyer acquisition-only activity numbers 25719 ($4,600) and 26432
           ($3,985). The household income exceeded HUD’s income guidelines by $985
           (2.1 percent) and $2,834 (7.5 percent) for activity numbers 25719 and 26432,
           respectively.

Comment 16 The Authority lacked sufficient documentation to support that the households for
           2 home-buyer acquisition-only activities were income eligible and that the homes
           for 37 activities met HUD’s property standards requirements. The Authority



                                               57
              could not provide 3 consecutive months of income documentation, complete
              income verification documentation, and or certified copies of tax returns for the
              two households. Neither the Authority nor a party contracted by the Authority
              inspected the 37 homes. The Authority relied on occupancy inspections
              performed by the cities or counties where the homes were located or inspections
              performed by other inspectors not under contract with the Authority.

Comment 17 The Authority did not provide documentation to support that its general counsel
           provided training to its Single Family Department on record retention
           requirements. Further, providing training to staff does not support procedures and
           controls have been implemented to ensure that the Authority maintains all
           contracts with third-party inspectors for at least 5 years after the contract
           terminate.

Comment 18 Contrary to HUD’s regulations, the Authority lacked sufficient income
           documentation for 6 of the 15 home-buyer rehabilitation projects reviewed to
           support that it used nearly $219,000 in Program funds for eligible households.
           The Authority lacked 3 consecutive months of income documentation, had
           incomplete income verification documentation, and or did not have certified
           copies of tax returns.

Comment 19 Chapter two of HUD’s Technical Guide for Determining Income and Allowances
           for the Program, dated January 2005, states that a participating jurisdiction must
           project a household’s future income by using the household’s current income
           circumstances. The year-to-date pay statement, Internal Revenue Service forms
           W-2 wage and tax statement and 1099s, and non-certified tax return information
           may not reflect the household’s current income circumstances.

Comment 20 The Authority provided documentation to support that the household for home-
           buyer rehabilitation project number 24412 was income eligible.

              Therefore, we revised the report to state the following:

                 Contrary to HUD’s regulations, the Authority lacked sufficient income
                  documentation for 6 of the 15 home-buyer rehabilitation projects reviewed to
                  support that it used nearly $219,000 in Program funds for eligible households.

                 The following table shows the six projects for which the Authority did not
                  have sufficient income documentation to demonstrate that households were
                  income eligible.

              We revised the table by removing the entry for project number 24412.

              We also revised recommendation 4C to reflect these revisions.




                                               58
Comment 21 The weaknesses regarding the Authority’s lack of sufficient documentation to
           support that households were income eligible occurred because the Authority
           lacked adequate procedures and controls regarding organizations’ home-buyer
           rehabilitation projects to ensure that it appropriately followed HUD’s
           requirements.

Comment 22 The Authority (1) drew down more than $24.8 million in Program funds from the
           State’s treasury account from July 1, 2008, through November 30, 2010, when it
           had available Program income in the State’s local account; and (2) did not always
           appropriately account for Program income.

Comment 23 We rounded the overstatements and understatements of Program income to make
           the report more readable. The Authority (1) did not include in the spreadsheet
           $6,818 in Program income disbursements made in August 2008 ($6,418) and
           February 2010 ($420), (2) incorrectly included in the spreadsheet $5,612 in
           Program income receipts in March 2009 that were actually Program income
           disbursements, and (3) inaccurately included in the spreadsheet $45,497 in
           Program income disbursements in November 2009 ($36,597) and September 2010
           ($8,900) that were not disbursements from Program income. Therefore, its
           balance of Program income was understated by $27,455 ($45,497 less $6,818 and
           $5,612 times 2) as of June 2011. In July 2011, we provided the Authority a
           schedule showing the overstatements and understatements of Program income and
           the Authority made the necessary corrections to the spreadsheet so that its
           Program income was no longer understated.

Comment 24 The Authority did not always appropriately account for Program income in the
           spreadsheet. The Authority did not include in the spreadsheet (1) more than
           $162,000 in Program income receipts from 2006 through 2007 until January
           2009, (2) nearly $16,000 in Program income disbursements until April 2010, and
           (3) nearly $16,000 in Program income receipts until August (nearly $4,000) and
           September (more than $12,000) 2010. Further, it lacked sufficient documentation
           to identify the source and application of the Program income receipts and
           disbursements.

Comment 25 The inclusion in the spreadsheet of the more than $162,000 in Program income
           receipts in January 2009 was within our audit period of July 2008 through
           November 2010.

Comment 26 The Authority used the spreadsheet to track its receipts and disbursements of
           Program income and determine the amount of Program income it had available to
           be disbursed. Therefore, since its balance of Program income in the spreadsheet
           was understated by more than $27,000, it was not aware that it had additional
           Program income available in the State’s local account to disburse before drawing
           down Program funds from the State’s treasury account.




                                             59
Comment 27 By not including in the spreadsheet more than $162,000 in Program income
           receipts from 2006 through 2007 until January 2009, the Authority had additional
           Program income available in the State’s local account from July 2008 through
           December 2008 to disburse before drawing down Program funds from the State’s
           treasury account. Further, the Authority lacked sufficient documentation to
           identify the source and application of the Program income receipts. All three
           recommendations are associated with this issue.

Comment 28 The $24.8 million is the amount of Program funds that the Authority drew down
           from the State’s treasury account when it had available Program income in the
           State’s local account. Therefore, the $24.8 million does not include the $162,000
           in Program income receipts from 2006 through 2007 that the Authority did not
           include in the spreadsheet until January 2009.

Comment 29 On August 2, 2011, we provided the executive director of the Authority and
           HUD’s staff a schedule supporting that the Authority drew down more than $24.8
           million in Program funds from the State’s treasury account from July 1, 2008,
           through November 30, 2010, when it had available Program income in the State’s
           local account and HUD lost nearly $15,000 in interest on the Program funds that
           the Authority drew down from the State’s treasury account when Program income
           was available.

Comment 30 Further, we provided our draft audit finding outline regarding the Authority’s lack
           of adequate controls over its administration of Program income to the executive
           director of the Authority on August 2, 2011.

Comment 31 The weaknesses regarding the Authority’s (1) drawing down of Program funds
           from the State’s treasury account when it had available Program income in the
           State’s local account, (2) not always appropriately accounting for Program
           income, (3) lack of sufficient documentation to identify the source and application
           of Program income receipts and disbursements, and (4) not reporting Program
           income in HUD’s system in a timely manner occurred because the Authority
           lacked adequate procedures and controls regarding its administration of Program
           income to ensure that it appropriately followed HUD’s requirements.

Comment 32 The Authority did not report in HUD’s system the more than $162,000 in
           Program income receipts from 2006 through 2007 until January 2009.




                                             60
Appendix C

      HUD’S REQUIREMENTS AND THE STATE’S AND THE
                 AUTHORITY’S POLICIES

Finding 1

HUD’s regulations at 24 CFR 92.205(e) state that a Program-assisted project that is terminated
before completion, either voluntarily or otherwise, constitutes an ineligible activity and any
Program funds invested in the project must be repaid to the participating jurisdiction’s HOME
investment trust fund in accordance with 24 CFR 92.503(b).

HUD’s regulations at 24 CFR 92.503(b)(2) state that except for repayments of project-specific
organization loans which are waived in accordance with 24 CFR 92.301(a)(3) and 92.301(b)(3),
any Program funds invested in a project that is terminated before completion, either voluntarily
or otherwise, must be repaid by the participating jurisdiction in accordance with section
92.503(b)(3). Section 92.503(b)(3) states that if the Program funds were disbursed from the
participating jurisdiction’s treasury account, the funds must be repaid to the participating
jurisdiction’s treasury account. If the Program funds were disbursed from the participating
jurisdiction’s local account, the funds must be repaid to the participating jurisdiction’s local
account.

Findings 2, 3, and 4
Section 215(b) of Title II of the Cranston-Gonzalez National Affordable Housing Act, as
amended, states that housing that is for homeownership shall qualify as affordable housing under
Title II of the Act only if the housing is subject to resale restrictions that are established by the
participating jurisdiction and determined by HUD’s Secretary to be appropriate to (1) allow for
the later purchase of the property only by a low-income household at a price which will provide
the owner a fair return on investment and ensure that the housing will remain affordable to a
reasonable range of low-income home buyers or (2) recapture the Program investment to assist
other persons in accordance with the requirements of Title II of the Act, except when there are no
net proceeds or when the net proceeds are insufficient to repay the full amount of the assistance.

HUD’s regulations at 24 CFR 91.200(a) state that a complete consolidated plan consists of the
information required in section 91.220.

HUD’s regulations at 24 CFR 91.220(l)(2)(ii) state that the action plan must include the
guidelines for resale or recapture, as required in 24 CFR 92.254, if a participating jurisdiction
intends to use Program funds for home buyers.

HUD’s regulations at 24 CFR 92.254(a)(3) state that housing must be acquired by a home buyer
whose household qualifies as a low-income household and the housing must be the principal


                                                 61
residence of the household throughout the period described section 92.254(a)(4). Section
92.254(a)(4) states that Program-assisted housing must meet the affordability requirements for
not less than the applicable period beginning after activity completion. Home-ownership
activities that receive less than $15,000 in Program assistance must remain affordable for at least
5 years. Home-ownership activities that receive from $15,000 to $40,000 in Program assistance
must remain affordable for at least 10 years. Home-ownership activities that receive more than
$40,000 in Program assistance must remain affordable for at least 15 years. Section 92.254(a)(5)
states that to ensure affordability, the participating jurisdiction must impose either resale or
recapture requirements that comply with the standards of section 92.254(a)(5) and include the
provisions in its consolidated plan. HUD must determine that they are appropriate. Section
92.254(a)(5)(ii) states that a participating jurisdiction’s recapture provisions must ensure that the
participating jurisdiction recoups all or a portion of the Program assistance to the home buyers if
the housing does not continue to be the principal residence of the household for the duration of
the period of affordability. The participating jurisdiction may structure its recapture provisions
based on its program design and market conditions. Section 92.254(a)(5)(ii)(A) states that in
establishing its recapture provisions, the participating jurisdiction is subject to the limitation that
when the recapture provision is triggered by a voluntary or involuntary sale of the housing unit
and there are no net proceeds or the net proceeds are insufficient to repay the Program
investment due, the participating jurisdiction may recapture only the net proceeds if any. The
recaptured funds must be used to carry out Program-eligible activities in accordance with the
requirements of 24 CFR Part 92.

HUD’s regulations at 24 CFR 92.503(c) state that Program funds recaptured in accordance with
24 CFR 92.254(a)(5)(ii) must be deposited into the participating jurisdiction’s local account;
unless the participating jurisdiction permits a State recipient, subrecipient, or organization to retain
the recaptured funds for additional Program projects pursuant to a written agreement; and used in
accordance with the requirements of 24 CFR Part 92.

HUD’s HOMEfires, volume 5, number 2, states that for Program-assisted home-buyer projects
with recapture provisions, the amount of Program funds required to be repaid if the ownership of
the housing is conveyed pursuant to a foreclosure sale is the amount that would be subject to
recapture under the terms of the written agreement with the home buyer. If the recapture
agreement provides for shared net proceeds, the amount subject to recapture is based on the
amount of net proceeds, if any, from the foreclosure sale. If the recapture agreement requires the
entire amount of the Program investment from the home buyer or an amount reduced pro rata
based on the time the home buyer has owned and occupied the housing measured against the
affordability period, the amount required by the agreement is the amount that must be recaptured
by the participating jurisdiction for the Program. If the participating jurisdiction is unable to
recapture the funds from the household, the participating jurisdiction must reimburse its Program
in the amount due pursuant to the recapture provisions in the written agreement with the home
buyer. Regardless of the terms of its written agreements, it is important that the participating
jurisdiction establish mechanisms to ensure that it will be notified of pending foreclosures so that
it can attempt to recoup some or all of the Program subsidy.

HUD’s HOMEfires, volume 5, number 5, requires a participating jurisdiction to select either
resale or recapture provisions for its Program-assisted home-buyer projects. The participating



                                                   62
jurisdiction may select resale or recapture provisions for all of its home-buyer projects or resale
or recapture provisions on a case-by-case basis. However, the participating jurisdiction must
select whether resale or recapture will be imposed for each home-buyer project at the time the
assistance is provided. A participating jurisdiction may adopt any one of four options in
designing its recapture provisions. All of the options the participating jurisdiction will employ
must be identified in its consolidated plan and approved by HUD.

The State’s consolidated plan for 2005 through 2009 and action plan for 2009 state that the
amount of Program funds to be recaptured is based on a pro rata shared net sale proceeds
calculation. If there are no proceeds, there is no recapture. Any net sale proceeds that exist
would be shared between the recipient and the beneficiary based on the number of years of the
affordability period that have been fulfilled, not to exceed the original Program investment. The
State’s action plan for 2009 also states that the affordability period for all Program-assisted
housing is determined by the total amount of Program assistance that goes into a property.
Activities that receive less than $15,000 in Program assistance per unit must remain affordable
for 5 years. Activities that receive from $15,000 to $40,000 in Program assistance per unit must
remain affordable for 10 years. Activities that receive more than $40,000 in Program assistance
per unit must remain affordable for 15 years.

Finding 2
HUD’s regulations at 24 CFR 92.254(a)(5)(ii)(A)(5) state that if the Program assistance is used
only for development subsidy, the Program funds are not subject to recapture and the resale
option must be used.

HUD’s regulations at 24 CFR 92.502(c)(2) state that Program funds drawn from the treasury
account must be expended for eligible costs within 15 days. Any funds that are drawn down and
not expended for eligible costs within 15 days of the disbursement must be returned to HUD for
deposit into the participating jurisdiction’s treasury account.

The State’s consolidated plan for 2005 through 2009 and action plan for 2009 state that when the
program design calls for no recapture (for home-buyer developments, the home could receive
only development subsidy), the guidelines for resale will be adopted in lieu of recapture
guidelines. Resale restrictions will require the seller to sell the property only to a low-income
household that will use the property as its principal residence. Recipients should describe in the
application, program guidelines, or award agreement their guidelines in using the resale
guidelines. The homeowner selling the property will be allowed to receive a fair return on
investment, which will include the homeowner’s investment and any capital improvements made
to the property.

Findings 3 and 4
HUD’s regulations at 24 CFR 92.2 define a low-income household as a household with an
annual income that does not exceed 80 percent of the median income for the area as determined
by HUD.



                                                 63
HUD’s regulations at 24 CFR 92.203(a) state that a participating jurisdiction must determine
whether each household is income eligible by determining the household’s annual income.
Section 92.203(a)(2) states that a participating jurisdiction must determine households’ annual
income by examining source documentation evidencing households’ annual income. Section
92.203(d)(1) states that a participating jurisdiction must calculate a household’s annual income
by projecting the prevailing rate of the household’s income at the time the participating
jurisdiction determines the household to be income eligible. Annual income must include
income from all household members.

HUD’s regulations at 24 CFR 92.217 state that a participating jurisdiction must invest Program
funds made available during a fiscal year so that with respect to home ownership assistance, 100
percent of these funds are invested in dwelling units that are occupied by households that qualify
as low-income households.

HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must establish and
maintain sufficient records to enable HUD to determine whether it has met the requirements of
24 CFR Part 92. The participating jurisdiction must maintain records demonstrating that each
household is income eligible in accordance with 24 CFR 92.203.

Chapter two of HUD’s Technical Guide for Determining Income and Allowances for the
Program, dated January 2005, states that a participating jurisdiction may develop its own income
verification procedures provided that it collects source documentation and that this
documentation is sufficient to enable HUD to monitor Program compliance. A participating
jurisdiction must project a household’s future income by using the household’s current income
circumstances. Exhibit 2.1 states that a participating jurisdiction must include hourly wage
figures, overtime figures, bonuses, anticipated raises, cost-of-living adjustments, or other
anticipated changes in income in an applicant household’s projected income calculation. For
households with jobs providing steady employment, it can be assumed that there will be only
slight variations in the amount of income earned. Therefore, 3 consecutive months’ worth of
income documentation is an appropriate amount upon which to base a household’s projected
income calculation for the following 12-month period. For those households with jobs providing
employment that is less stable or does not conform to a 12-month schedule (such as seasonal
laborers), income documentation that covers the entire previous 12-month period should be
examined. In addition to hourly earnings, participating jurisdictions must account for all earned
income. This income will include annual cost-of-living adjustments, bonuses, raises, and
overtime pay in addition to base salary. In the case of overtime, it is important to determine
whether overtime is sporadic or predictable. If a participating jurisdiction determines that a
household will continue to earn overtime pay on a regular basis, it should calculate the average
amount of overtime pay earned by the household over the past 3 months. This average should
then be added to the total amount of projected earned income for the following 12-month period.
Appropriate income documentation includes pay statements, third-party verification, bank
statements, or certified copies of tax returns.




                                                64
Finding 3
HUD’s regulations at 24 CFR 92.251(a)(2) state that housing acquired with Program funds must
meet all applicable State and local housing quality standards and code requirements. If there are
no such housing quality standards or code requirements, the housing must meet HUD’s housing
quality standards.

HUD’s regulations at 24 CFR 92.504(b) state that before disbursing any Program funds to any
entity, the participating jurisdiction must enter into a written agreement with that entity. Before
disbursing any Program funds to any entity, a State recipient, subrecipient, or contractor, which
is administering all or a part of the Program on behalf of the participating jurisdiction, must also
enter into a written agreement with that entity. The written agreement must ensure compliance
with the requirements of 24 CFR Part 92.

HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must maintain
records demonstrating that each activity meets the property standards of 24 CFR 92.251. Section
92.508(c)(4) states that written agreements must be retained for 5 years after the agreement
terminates.

HUD’s HOMEfires, volume 6, number 2, states that pursuant to HUD’s regulations at 24 CFR
92.504(a), a participating jurisdiction is responsible for managing the day-to-day operations of its
Program, including compliance with property standards applicable to Program units.
Participating jurisdictions must perform inspections of Program units purchased with Program
funds. Participating jurisdictions may not rely on independent inspections performed by any
party not under contract with the participating jurisdiction. Third parties such as consumer
inspectors or FHA appraisers are not contractually obligated to perform the participating
jurisdictions’ obligations. Their inspections cannot be used to determine compliance with
Program property standards requirements.

Finding 5
HUD’s regulations at 24 CFR 92.2 define Program income as gross income received by a
participating jurisdiction directly generated from the use of Program funds or matching
contributions.

HUD’s regulations at 24 CFR 92.502(c)(3) state that a participating jurisdiction must disburse
Program funds, including Program income and recaptured Program funds, in its local account
before requesting Program funds from its treasury account.

HUD’s regulations at 24 CFR 92.503(a)(1) state that a participating jurisdiction must deposit
Program income into its local account.

HUD’s regulations at 24 CFR 92.508(a) state that a participating jurisdiction must establish and
maintain sufficient records to enable HUD to determine whether it has met the requirements of
24 CFR Part 92. The participating jurisdiction must maintain records identifying the source and
application of program income, repayments, and recaptured funds.


                                                 65
HUD’s Community Planning and Development Notice 97-9, issued September 12, 1997 requires

   Available Program income to be determined and recorded in HUD’s Integrated Disbursement
    and Information System in periodic intervals not to exceed 30 days;
   Participating jurisdictions to maintain records which adequately identify the source and
    application of Program income as part of the financial transactions of their Program,
    consistent with 24 CFR 85.20; and
   Participating jurisdictions to be able to identify which projects generated Program income
    and which projects received Program income, including the amount.




                                              66
Appendix D

  SCHEDULE OF ORGANIZATIONS’ HOME-BUYER NEW
   CONSTRUCTION PROJECTS WITH INAPPROPRIATE
            RECAPTURE PROVISIONS

                        Inappropriate    Affordability   Recapture
             Activity     recapture       period too     amount too
             number       provisions         long          large
              23956           X
              23959           X               X
              24064           X
              24162           X               X
              24286           X
              24372           X
              24403           X
              24404           X
              24419           X
              24420           X
              24461           X
              24514           X
              24530           X               X
              24531           X               X
              24621           X
              24859           X
              24861           X               X
              25053           X
              25054           X               X              X
              25246           X
              25417           X
              25488           X
              25489           X
              25529           X               X
              25534           X                              X
              25536           X                              X
              25537           X                              X
              25538           X               X              X
              25563           X
              25564           X
              25654           X
              25655           X
             25701           X


                                        67
SCHEDULE OF ORGANIZATIONS’ HOME-BUYER NEW
 CONSTRUCTION PROJECTS WITH INAPPROPRIATE
       RECAPTURE PROVISIONS (CONT.)

                  Inappropriate   Affordability   Recapture
       Activity     recapture      period too     amount too
       number       provisions        long          large
       25702           X
       25720           X
       25721           X                              X
       25849           X               X              X
       25933           X
       26067           X
       26319           X
       26447           X
       26974           X
       Totals          42              9              7




                                  68
Appendix E
    SCHEDULE OF ORGANIZATIONS’ HOME-BUYER
  ACQUISTION-ONLY ACTIVITIES WITH INSUFFICIENT
               DOCUMENTATION

               Activity    Final inspections         Income           Assistance
               number       or certifications   documentation           amount
                24486                                   X                 $4,700
                24743*              X                                       3,750
                24823*              X                                       4,750
                24870*              X                                       4,850
                24873*              X                                       4,750
                24874*              X                                       4,750
                24923*              X                                       4,850
                24938*              X                                       4,850
                24977*              X                                       4,750
                25021*              X                                       4,700
                25056               X                                       4,600
                25066*              X                                       4,700
                25080               X                                       4,600
                25085                                   X                   4,600
                25091*              X                                       4,600
                25235               X                                       4,700
                25248*              X                                       4,850
                25719               X                                       4,600
                25748               X                                       4,700
                25782*              X                                       4,750
                25852*              X                                       4,700
                25893*              X                                       4,850
                25932*              X                                       4,850
                25979*              X                                       4,850
                26086               X                                       4,700
                26096*              X                                       4,850
                26097*              X                                       4,850
                26175*              X                                       4,850
                26176*              X                                       4,700
                26177*              X                                       3,350
                26206*              X                                       4,850
                26207*              X                                       4,850
                26208*              X                                       4,850
                26240*              X                                       4,850
                26242*              X                                       4,850
                26303*              X                                       4,600
                26314*              X                                       4,850
                26432               X                                       3,985
                26433*              X                                       4,600
                Totals             37                    2              $182,235
             * Home-buyer acquisition-only activities that were for the purchase of
               a new construction home.




                                              69
